Supreme Court, U.S.
FILED

FEB 1 0 2021
No.

(3(2-17^0

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

JOANNE TAYLOR-COTTEN- PETITIONER
vs.

DISTRICT OF COLUMBIA GOVERNMENT
OFFICE OF EMPLOYEE APPEALS — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
DISTRICT OF COLUMBIA COURT OF APPEALS

(NAME OF COURT THAT LAST RULED ON MERITS OF
YOUR CASE) PETITION FOR WRIT OF CERTIORARI
JOANNE TAYLOR-COTTEN. 12405 GABLE LANE
FORT WASHINGTON MARYLAND 20744
301 203-2577

RECEIVED
JUN -9 2021

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

[ ] No petition for rehearing was timely filed in my
case,
[ ] A timely petition for rehearing was denied by the
United States Court of Appeals on the following
, and a copy of the order
date:
denying rehearing appears at Appendix------_
[ ] An extension of time to file the petition for a
writ of certiorari was granted to and including
m
(date)
(date) on
Application No. —A.
The jurisdiction of this Court is invoked under 28 U. S. C. 1254 (1) .

[ X] For cases from state courts:
The date on which the highest state court
-------------01/27/2021 decided my case was A copy of that decision
appears at Appendix YES
[ ] A timely petition for rehearing was thereafter
denied on the following date:
, and a copy of the order denying
rehearing appears at Appendix

[ ] An extension of time to file the petition for a
writ of certiorari was granted to and including
m
(date)
on
_____________
(date)
Application No. — A
The jurisdiction of this Court is invoked under 28 U.
S. C. 1257(a).

QUESTION(S) PRESENTED
The petition for a write of Certiorari before
judgement presents the same issues that Mrs. Taylor's
has presented in its jurisdiction statement OEA et
al DCC A N19-CV-1254

1.Whether the district court erred in holding DCPS
and OEA for violation of the IMPACT process by no
providing Staff development
2. Whether OEA erred in using the wrong Guidebook
IMPACT 2015-2014

3. Whether district court erred in dismissing alleging without
consideration the facts of Discrimination and retaliation, because
it was out of OEA jurisdiction

OF
LIST PARTIES

[X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
TABLE CONTENTS
OPINIONS BELOW
Oea MATTER 2401-0099-10

DC CODE 1-606.03
JURISDICTION.............

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
TITLE VI1 OF THE CIVIL RIGHTS ACT OF 1964

OF
THE CIVIL RIGHTS ACT OF 1991
THE AGE DISCRIMATION IN EMPLOYMENT ACT OF 1967(ADEA)

STATEMENT OF THE CASE Weather Agency Actions was taken for
just cause
REASONS FOR GRANTING THE WRIT The Seventh Amendment denied a trial
by Jury....................
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C

APPENDIX D
APPENDIX E

OF
APPENDIX F
TABLE AUTHORITIES CITED
CASES

PAGE NUMBER

v

Washington Teachers Union vs District of Columbia Schools 17 Cv -1156 (Del9)

OF

j

i

f

}

1

OF
OEA MATTER

NO 2401-0099-10

t

STATUTES AND RULES OEA Rule 628.1 59 DCR2119 (2012) DC
Personnel Regulations Chapter 1 IB

A

\

OF
i

■v-

J

{

?

OF
PIP performance Improvement Plan 1410-10,1410.6DC. law 2-139 DC
official code 1-608.0192006

IMPACT GUIDELINES DC PUBLIC School 2014-2015

)

OF

4

v.

/

(
1

i

OF
OEA Rule 628.1 59 DCR 119 (2012)
<•:

i

i

i

i
1.
t

/

,

OTHER
r ■

4*

i

i

t *

y

c

i

f

A

1.
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED Title VI1 of the Civil rights Act of 1964
STATEMENT OF THE CASE
COMES NOW PETITIONER RESPECTIVELY,
Joanne Taylor Cotton, on the merit of Retaliation,
Discrimination of the District of Columbia Public Schools
agency and the District of Columbia Government the
Office of Employee Appeals, pertaining to unjust cause of
termination of employee. Violated Title VII of the Civil
Rights Act of 1964, The Civil Rights Act of 1991 and The
age discrimination in Employment Act of 1967(ADEA) . I
hear request back pay of ten years of suffering . Pickering
Vs Board Education 1968. The District of Columbia
reinstated Joanne Taylor-Cotten on October 15, 2014
due to a mistake on a competitive level document during
the RIFT of 2009 and Joanne Taylor Cotten was not
given backpay of $555,00 after 5 years of suffering and
losing DC retirement and working part time employment
with three School Districts.
OEA matter No 2401-0099-10.
Joanne Taylor-Cotten a Black female US citizen aged
sixty years a certified Professional School Counselor
present 2021 with The Prince George County Public
Schools. The past salary with the District of Columbia
School of 111,000 a year twenty years of service. The
salary increases with step and raise including cost of
living increase would have exceeded 156,000. During the
next few years.
Ms. Sara Goldband, White female Caucasian during this
time 2014, Director of Personnel for the District of
Columbia Schools reinstated Mrs. Taylor-Cotten as a
temporary employee after prevailing her case with Office
of Employee Appeals. Teachers Reinstatement ACT,
Sara Goldband is Director of the District of Columbia
Schools budget present 2021. Ms. Goldband
discriminated against Mrs. Cotten based on race and
salary, Age, and marital status, placed Mrs. TaylorCotten in harm’s way in schools that did not have money

on the budget as a Professional School Counselor when
there were permanent positions of Counselor available.
Evidence. Principals oversee budgets used the IMPACT
evaluation system of the District of Columbia Public
Schools to terminate Mrs. Taylor-Cotten..
Mrs. Taylor- Cotten, worked twenty years for the District
of Columbia School system and previously had excellent
evaluation and Counselor of the Year in District of
Columbia School Counsellors Association. During the two
years I was there Principal Desepe De Vargas, 2015-2016
discriminated against Mrs Taylor-Cotten due to the
foreign country she was born in Liberia, a country in
Africa who an American dictator named Charles Taylor,
took over the country as Dictator and destroyed lives. Ms.
DeVagas ,rated Mrs. Taylor-Cotton, minimal effective on
the IMPACT process, treated me unfairly by not giving
me assignment as a Counselor but as a Substitute
Teacher. Treated me unfairly to the younger Counselors
on budget and lowed score. Next Office of Employee
Appeals, the Honourable Joseph Lim, who presided over
a previous case I prevailed OEA mater No 2401-009910
dismissed the case. Without recognizing the IMPACT
process was violated by the 2014-2015 IMPACT process
Book The District of Columbia Superior Court did not
address the IMPACT process of Joanne Taylor-Cotten
never receiving Professional Development a part of the
IMPACT process. The court did not address
Discrimination and Retaliation due to salary increase
and president case. Therefore DC. Government violated
the IMPACT process. The IMPACT process book OEA
used was 2015-2016 and 2014-2015 was the Impact book
that should have been used which at the last minute
during the OEA process 2016 made retroactive. The
Principal DR. Yetunde Reeves waited until the last
minute and the last day to contact Mrs. Taylor-Cotton
because she forgot to schedule a conference. She was
terminated by District of Columbia Public Schools for
violation of School Policy .

REASONS FOR GRANTING THE PETITION

V

District of Columbia Government violated the IMPACT process the
evaluation tool and Discriminated against Mrs. Taylor-Cotten based on
Age, Race, and Precedent case . Out of thousands of teachers terminated
in 2009, due to the RIFT, Mrs. Taylor- Cotten was the only one to
prevail, reinstated as a temporary employee never received backpay of
500,00 after 17 years of full-time service, worked two years than
terminated Mrs. Taylor Cotten salary would have exceeded 176,000 in
2021 District of Columbia retaliated used Impact evaluation to terminate
Mrs. Taylor Cotten. Mrs. Taylor Cotten has helped thousands of
Students during her career with millions in Scholarships for students. I
have suffered 10 years of losing salary and pension and there was a
mistake on Medicare for 4 years, that the District of Columbia Schools
did not submit to Social Security. A graduate of University of Pittsburgh
and Villanova University, studied law, education and Certified
Paralegal, American Bar Association Approved. I believe in Justice”
Justice shall prevail” I am requesting back pay of one million one
hundred and ten thousand dollars plus interest.
CONCLUSION
The petition for a Writ of Certiorari, should be granted, of the evidence presented this
is the whole truth and nothing but the truth so help me GOD

Respectfully submitted, Joanne Taylor-Cotten
-

Date:

June 2, 2021

t

,*

i

V

IN THE
SUPREME COURT OF THE UNITED STATES

Joanne Taylor-Cotten
(Your Name)

PETITIONER

VS.
District of Columbia Office of Employee Appeals
______________________ — RESPONDENT(S)

